  IMPLEMENTATION OF THE STATE

LEGALIZATION IMPACT ASSISTANCE

 GRANTS UNDER THE IMMIGRATION

REFORM AND CONTROL ACT OF 1986





                STATE         OF   FLORIDA




                    RICHARD P. KUSSEROW

                        INSPECTOR GENE RAL





OAI-07   -800                                 AUGUST 1989
                                EXECUTIVE SUMMARY


PURPOSE

The purse of ths inspection was to determe how effectively Florida implemente the
State Legalzation Impact Assistace Grats (SLIAG) progr, to identi potential problems
early in the process, and to identiy goo practices which al States could shar.

BACKGROUND

The SLIAG progr was established under the Imgrtion Reform and Contrl Act (IRCA)
of 1986 to reuce the fmancial burden of providig public assistace, public health assistace,
and educational servces to eligible legalze alens. In Fiscal Year (F) 1988, $928. 5 miion
in progr fuds were alocated to States, and fuds will contiue to be alocated thugh FY
1991. . These fuds also cover adstrtive costs for implementing SLIAG at the State and
local levels. Payments ar mad for public assistace activities generaly available to all
neey individuals and public health assistace services offered under the States ' public health
progrs. The paymnts also cover educational servces designed to assist eligible legalized
alens to att a satisfactory level of performce in school and to achieve English language
proficiency and citizenship skis necessar to beome perment residents. The Famly
Suppon Admistrtion (FSA) is responsible for adisterig the progr.

Because SLIAG establishes a new progr, FSA realze that prob.1em aras would surace
early in its implementation. In adtion to the norm diculties encountered in crating new
processes and procedurs, FSA reognze that SLIAG would have unique problems. Some
of these issues include the diversity of progrs which SLIAG encompasses, cultual and
language barers assocate with the servce population mataing confdentiality of
inormation , and the extrmely shon ti fres for the grt awar proess.

METHODOLOGY

In response to the anticipated diculties with implementig SLIAG, the FSA reuested that
the Offce of Inspector General (OIG) conduct reviews in 10 States to determne the progress
of States ' implementig this progr. The FSA selected nine States and the Distrct of
Columbia beause of the varety of   progr       they offere the number of eligible legalized
aliens in the population, or the amount of the grt awar The nie States ar Arzona,
Caifornia, Colorado, Flori      Ilinois, Masachusetts, New York, Texas, and Washington.

Intervews based on  strctud discussion guides for each major progr ara, as well as
documentation fuished by FSA and State and local offcias, built the base of information for
this repon. This report represents the review conducte in the State of Florida and repons on
its implementing the SLIAG progr as of August 1988.
Both FSA and Florida were commtt to identiyig                 problem aras and developing
inovative and        effective solutions for them.   Imately followig our on-site visits , FSA
was given an outle of the State concerns identied in ths repon. The            FSA   and Florida have
alady intiated action on some of the fidigs and reommendations.
FINDING:     Since    FSA ha held national conferences and issued informtion to States
                        1987,

on imlementing the SUAG program.

              The FSA held severa national conferences            begig
                                                                   in 1987 to share
              inormation with States on SLIAG legislation , the implications for States, the
              application process, and the documentation of costs
              The FSA also provide States with "Question and Answer" issuances and
              demographic data from the Imgration and Natualzation Servce.

FINDING: Florida established a strtue to identfy organizational and program needs.

              The Refugee          Prgrs
                                      Admnistrtor for the Deparnt of Health and
              Rehabiltative Servces is the single point of contat for Florida. The Governor
              placement of the single point of contact in the deparent ensures high visibilty
              for SLIAG.
            - Florida sureyed its public assistace, public health assistace, and educational
              services programs to assess the overa need in providing expanded assistance
              to eligible legalze alens.
              To assist eligible legalze alens meet educational reuiements for permanent
              resident status, Florida develope a new educational progr caled
               Citizenship. "

FINDING: Florida also took immediate steps to documnt exenditures and .;ontrol
disbursements .

              Florida began planing modfications to the existig State Automated
              Management Accountig System to captu addtional new data elements for
              SLIAG. Alowable expenditus wi be identied by object cods or other
              mechanisms to prevent reimburment for unalowable expenditus.
              Plans for implementig SLIAG include developing form contracts, grts, or
              operatig agrements with servce providers such as the counties, a major
              hospital, and the Deparent of Education. Expenditur and disbursement
              contrls wil be an integr pan of the form agrments. The SLIAG services
              ar provided on a cost-reimburable basis.
              No cash advances or cash balances ar anticipated. Contrct compliance wil be
              closely monitore accordig to established State stadads.

Neverteless, there ar           some funds contrl   vulnerabilties.
FINDING: Florida' s planned modifcation of its aumated accounting system to control
SUA.G expenditures and disbursements       ha not been implemented.
FINDING: The necessary forml operating agreements between the State, countes, and
major providers containing the details for implementng SUAG ha not yet been formlized.

FINDING: The FSA' s definition of public assistance includes some public health activities
which created adinistrative and service delivery problems for Florida public health agencies.


FINDING: At the time of the inspectin, Florida ha onl broad, informl guidelines from
FSA on the allowability of SUAG costs and the documntation requirements which it could
share with the counties.

FINDING: The        FSA applicatin review   process created a nuer    of significant problems for
Florid. Also, the FSA's application review process interfered with the State s ability to plan
for services.



                 Delay in FSA issuing the implementing reguation resulted in the State
                 inabilty to properly plan for SLIAG.

                 Numerous policy misinterpretations and disagrments resulted beause FSA
                 did not provide defintive wrtten instrctions to assist Florida in understading
                 SLIAG application reuirements.
                 The tie frames were  too short for submittg the initial SLIAG application
                 FSA review and comment, and revisions of the application.
                 The implementation of SLIAG-funded    progr    was delayed because of a
                 signifcant delay innotig                 grt
                                             Florida of the     award.
                 No formal appeals process exists if progrs or costs ar denied in the fIrst level
                 review.

As mentioned earlier, FSA and Florida have aleady intiated action on some of the
reommendations made in this repon. Steps have ben taen by FSA to provide States with
more specific, formal guidelines for identing and documentig actual progr and
adistrative costs. However, adtional actions ar necessar in other aras on the pan of
FSA and Florida

RECOMMENDATION: Florida should complete its planned modifcation of the automated
system to control SUAG exenditures and disbursements.

RECOMMENDATION: Florida should develop SUAG operating agreements with the
counties and providers as soon as possible.

RECOMMENDATION: The FSA should reconsider its position to classif certain public
health services as public assistance and mae appropriate adjustments to thi position.
RECOMMENDATION: The FSA shoul issue written guidelines for determining and
documnting SUAG costs. In tun, Florid should ensure disseminating informtionfor
determining and documntng SUAG program and adnistrative costs to the counties.

RECOMMENDATION: The FSA should ma its application and grant process more
orderly. Specifcally, FSA should

            provide defitive wrtten instrctions on the SLIAG application requirments
            and establish a dialogue with Florida on SLIAG policy, compliance, and
            reponig issues to minie the confsion that occured in the initial application
            process;
            ensur that sufficient tie     is alott to the application process including
            Florida' s initial application , FSA' s review and formal comment, Florida'
            consideration of FSA comments and negotition of disputes, and its submission
            of the revised application for FSA approval;
            develop an appeals process to use if progr or costs associated with providing
            servces ar denied in the intial application process; and
            revise the grt award proess for approved applications so that the notice of
            grt                                   begig
                  award reaches Florida prior to the              of the fiscal year.

COMMENTS

The FSA and the State of Florida both commented on the drt repon. The commnts
include as Appendices B and C,   respetively.

The FSA and the State generaly   agrwith our fmdigs and recommendations. Both
reponed havig taen a number of steps to improve implementig SLIAG. Where
appropriate, we have moed the repon based on their comments.
                           . .
                             . . .                                          .. .. ..................................
                                                                                                                   ... .. .. ... .... . .. .. .. ...... ..
                                                                                                       . .. .. ................
                                                                                      .. .. . .... ... ..                                                                .... .
                                 . .. .. .. ... .. .. .. .. . .. .. .. .. ... .. .. .. .. . .. .. .. .. ... .. ... .... ... .. .. ... .... ... ... ........ ... ... ... ..         . ... .......
                                                                                                                                                                              .. ...




                                                       TABLE OF CONTENTS




EXECUTIVE SUMMARY

INTRODUCTION.




FLORIDA' S ORGANIZATIONAL STRUCTURE. . . . . . . .

FINDINGS AND RECOMMENDATIONS

                Public Assistace. . . . 

                Public Health Assistace. . 

                Education

                Crosscuttg Issues

OIG RESPONSE TO COMMENTS

APPENDICES

            APPENDIX A: Goo Prctices
            APPENDIX B: Famy Suppon Admnistration s Comments
               EN:DIX C: Florida' s Comments
                                     INTRODUCTION

                                                                                            --'i '




PURPOSE

The Famy Suppon Admnistrtion (FSA) reuested that the Offce of Inspector General
(OIG) conduct an insption in nine States and the Distrct of Columbia to determe how
effectively the States implemente the State Legalzation Impact Assistace Grts (SLIAG)
progr awarded under the Imgrtion Reform and Control Act (lCA) of 1986. The
insption include reviewig mehansms in place to identify these funds and determning
whether present or projected policies and predures adere to FSA gudelies. The FSA also
was interested in identig potential problems early in the process and any goo practices
which all States could shar. Ths repon presents the results of the inspection penag  to the
State of Florida.

BACKGROUND

Under IRCA , eligible legalize alens may apply for permanent residency within a I- year
period afr they ar fIrst eligible (Le., by the 31 st month afr they receive tempora resident
status).

Ths new    population will incrase the demand for State public assistace and public he
assistace servces signcantly. It wil also incras the demand for State educational
servces as these new residents obta English language and civic skis neeed to become
  S. citizens.

To help States defry may of the costs of providig public assistace, public health
assistace, and educational seces to eligible legalze alens, IRCA authorize $1 bilon
each year from Fiscal fear  (F    1988 thugh 1991 for SLIG grts, less an amount
identied as the "Federa offset. " With few exceptions, eligible legalize aliens are ineligible
for federay funded public assistace progrs such as Aid to Fames with Dependent
Childrn (AFC), foo staps, and Medcaid. The "Fedra offset" is the estiate cost to
the Federa Government of providig these servces or benefits to those few legalize     aliens
who ar eligible for them. In FY 1988, the law alocated $928. 5 millon to States.

To reeive SLIAG fuds, States must apply to the FSA Division of State Legalization
Assistace, which is respnsible for apprvig applications and adnistering the progr.
The application must be approved in tota for a State to reeive any SLIG funds. The FSA
also provides States with tehnical assistace on policy issues and on the method use to
estimate costs and veriy actual costs.

The basic reuirment for States to clai reimburement is that costs must be alowable,
reasonable, and alocable. State public assistace and public health assistace progrs must
be the same ones avaiable to the genera public. States cannot crate new    progr in these
aras speifcaly for eligible legalize alens. However, States may create new or additional
education progrs for eligible legalize alens. States may also claim reimbursement for
progr adstrtive and SLIAG adstrative costs.

Reimburement for public assIstace and public health assistace is     lite
                                                                        only to the amunt
of State and local funds expende for SLIAG-relate costs. The        maumSLIAG
reimburment for educational servces is an average of $500 per year per eligible legalize
alen. Determg progr adistrtive costs is               ma
                                                      in accordce with the fmal
reguation at 45 CP 402. 22.

The FSA is responsible for adnisterig the          progr
                                                       Because SLIAG was a new program,
FSA  real    that problems would surace early in its implementation. In adtion to the
norm diculties encountered in cratig new processes and proedures, FSA reognizd
that SLIAG would have unque problems. Some of these issues include the diversity of
progrs which SLIAG encompasses, cultu and language barers assoiated with the
servce population   matang confdentiity of inormtion , and tle extrmely shon tie
fres for the grt award process.
METHODOLOGY

The FSA selected nine States and the Distrct of Columbia for the inspection beause of the
varety of program offere the number of eligible legalize alens in the population , or the
amount of the grt. The nie States are Arona, Calornia, Colorado, Florida, llinois,
Massachusetts, New York , Texas, and Washington. This repon reviews Florida'
implementation of the SLIAG progr as of August 1988.

Pror to conducting the inspetion , the OIG develope        strctudiscussion guides for each
major progr activity at the State and local levels. In conducting ths review, intervews
were held with progr and/or financia offcias at the State capita in Talahassee, two
metrpolita counties (Dad and     Broward), and a       county. (St. Lucie).
. ,




                       FLORIDA' S ORGANIZATIONAL STRUCTURE



      Each State designate a single point of contat toadster and coordate the SLIAG
      progr. The Governor designated the Deparnt of Health and Rehabiltative Servces as
      the agency responsible for adstering the SLIAG progr in Florida The SLIAG single
      point of contact is the Admistrtor of Refugee Progrs. The State supervises and the
      counties adister the SLIG progr in Florida.

      The Deparent of Health and Rehabiltative Servces has 11 servce delivery distrcts
      thughout Florida. Distrct Admistrtors, who have the same standing as an Assistat
      Secta, ar appointed by the    Secta  and ditly responsible to the Deputy Secrta for
      Oprations. The Distrct Admtrtors    have  dit- lie authority over al deparenta
      progr   operatig in their distrcts.

      The delivery of educational serces for both school-age childrn and adults is handled by the
      Florida Deparnt of Education. Its head is the Commssioner of Education who is an
      elected offcial. The designated point of contat in the education deparent responsible for
      seurng and submittg     reuir     information relative to SLIAG is the Burau of
      Compensatory Education at the State capita in Talahasse. Adult education inormtion and
      concerns ar provided to the Bureau of Compensatory Education by the Burau of Adult and
      Community Education. The two buraus wi adister and deliver SLIAG-related
      educational servces to eligible legalze alens of school age (kderganen though 12th
      grad) and adults.

      The inspection revealed that the counties exercise signcant autonomy and contrl over
      progrs and other matters withn their resptive jurdictions. Robust competition exists
      between the counties for avaiable Fedra and State progr funds alocated by the State.
                           FINDINGS AND RECOMMENDATIONS



Both FSA and Florida wer commtt to identiyig problems and developing innovative and
effective solutions for them. Imedately followig our on-site visits, FSA was given an
outle of the State concerns identied in ths report The FSA and Florida have alady
intiated action on some of the fidigs and reommendations.

FINDING:   Since     FSA ha held national conferences and issued informtion to States
                   1987,

on imlementng the SUAG program.

            The FSA held severa national conferences   begig     in 1987 to shar
            inormtion with States on SLIAG legislation, the implications for States, the
            application process, and the documentation of costs.

            The FSA also provide States with "Question and Answer" issuances and
            demographic data from the Imgrtion and Natuzation Servce (IS).

FINDING: Florida established a strtue to identfy organizational and program needs.

            The Refugee      Prgrs  Admistrator for the Deparnt of Health and
            Rehabiltative Servces is the single point of contact in Florida. The Governor
            placement of the single point of contat in the deparent ensures high visibilty
            for SLIAG.

            Florida sureyed its public assistace, public health assistace, and educational
            servces progrs to assess the overa need in providig expande assistace
            to eligible legalze alens.

            To assist eligible legalize aliens meet educational reuiments for perment
            resident status, Florida develope a new educational progr caled
             Citizenship. "

            St. Lucie County and a local rado station ar workig jointly to broadcast
            avaiable servces (including those under SLIAG) in Crole to reach a large
            Haitian population.

             Broward County adistrators conducte a ZI cod analysis to determne
             where concentrtions of eligible legalze alens reside in the county. Thus,
             local servce delivery centers likely to be affected most fruently can be quickly
             identified, and aras where providers ar nee       can be tageted This tol
             useful for the county in carng out its progr assessment and planning
             functions for expanding existing progr.
             In Dad County, Jackson Memorial Hospitallses an on- lie computer to
             identiy patients meetig Fedra guidelies on povert. These data ar kept on
             me to aid hospita offcials to adister servce delivery programs including
             SLIAG. Jackson Memori Hospita has also developed new SLIAG patient
             registration proedures indicating thereuir documentation for eligible
             legalze alens.

FINDING: Florida also took immdite steps to document exenditues        and   control
disbursement .

             Florida began planning modcations to the existig State Automated
             Maagement Accounting System to captu addtional new data elements for
             SLIAG. Alowable expenditus wi be identied by object cods or other
             mechansms to prvent reimburment for unallowable expenditus.

             Plans for implementing SLIAG include developing form contracts, grts, or
             operatig agrements with servce providers such as the counties, a major
             hospita, and the Depanent of Education. Expenditu and disbursement
             contrls wi be an integr pan of the form agrments. The SLIAG services
             ar provided on a cost-reimburable basis.


             No cash advances or cash balances ar anticipate. Contrct   compliance     will be
             closely monitore accordig to established State stadads.

             State and county officials indicate that existig internal controls, fmancial
             management   stada,      and reportg reuiments applicable to progrms
             servg the refugee population wi be use for SLIAG wherever possible. No
             new or substatially augmented systems ar planned. Ordiar modfications
             wi be made to cwrnt processes as reuird to accommodte SLIAG
             implementation and monitorig.

Neverteless, there are some funds contrl vulnerabilties.   Findings and reommendations
concerng these   vunerabilties follow under   major topic aras. Findings and
reommendations which afect mor      than one assistace   progr ar discusse in the
Crosscuttng Issues setion of this repon.
PUBLIC ASSISTANCE

Assistance or Serve Activities

Major public assistace progrs provide by Florda that wi incur SLIAG-related costs
as follows: Medcaid; AFC; childrn s medcal servces; foster substitute car; primar
health car; community car for the elderly;  dit    emergency assistace for foo clothing,
shelter, and fiancial aid; home health car to low- income or indigent persons; housing;
menta health; alcohol and drg abuse tratment; trsprttion for the elderly, low-income
and handicappe clients; and domestic intervention.

State offcials   indicate that new progr for eligible legalze alens ar not anticipated.
Existig systems and     proesses wi be use wherever possible. However, it was disclosed
that needs assessments were being conducte thoughout the State to determe the impact on
existing progrs which were reuired to more effectively serve the eligible legaliz alien
                                                 progr
population. .At the time of the site viits, no new     had ben speifcaly established
beause of the avaiabilty of SLIAG funds.

Documentaton of Eligible Legalized Alien Stats

Documentation of eligible legalizd aliens for SLIAG public assistace wi be accomplished
at the intae stage of processing. For example, Dad County has amended its Basic Intae
Form to include a section for ths population. Identity documents, e. g., those issued by the
INS (Le., 1- 688, Tempora Resident Car or 1- 688A , Employment Authorization Card, etc.
wi be scrtiize and checked agaist a State- prepar list of acceptable identification. The
single point of contact is now workig with distrct ditors to clar and establish the list
These identity documents wi also be photocopied and mataed in the client me for futue
reference. . Qualty assurce wi include me reviews and contacts with eligible legalzed
alen famy members to veri identity.
Program Costs

FINDING: Florida' s planned modifcation of its automated accounting system to control
SUAG exenditues and disbursements ha not been implemented.

The State reognize the nee for modying its accounting system to determne and
document SLIAG costs. However, at the time of the review, the State had not implemented
methodologies to do ths.    Prgr    costs wi be monitor by the mechanisms the State
employs in documentig SLIAG funds from drwdown to claimed expenditu. Florida fiscal
offcials advise that the State Automated Management Accounting System will be modfied
by adg     new cod data elements for SLIAG. Allowable expenditus wil be defmed
object codes or other mehanisms. Once these contrls have been established, the State wil
make a stada accountig joural entr to move the fuds frm the State account to the
grte    account. This results in a disburement entr to the State s records and a reeipt in the
grte    s reords. The grtee agency then advises the State on using the    grt  funds by
submittng  cla   for reimbursement Oai contag unalowable items wi be reuced..
accordigly by the automated system prior to payment authorization.

The State automated system also reords monthy and year-todate expenditus agaist
budget alocations for salares, expenses, and operatig capita outlay. Expenditu rates are
reorded monthly. These monthly rates project annual expenditues based on curnt spendig
levels and keep maagers awar of potential surlus or deficit situations.

The Deparent of Health and Rehabiltative Servces uses a stadad contract management
system for al contrted servces. It is expeted that contracts for some servces wil involve
community- bas organzations.

Any irgularties involvig noncompliance with        contrts that reuire   planned corrctive
change wil be  incorprate in a corrective action plan. Ths plan wi be develope
cooperatively by the subcontrctor and distrct contrt maager. Financial, maagerial, and
adistrtive functions of subcontrtors wi          ordary be reviewed at least annually.

Al contrcts wi be cost-reimburable.         These ar usualy paid withn 21 days. No cash
balances ar   planed, nor   ar cash advances anticipate. However, if a cash advance is
neeed, the contractor must justify the request. The State wi   requir contrctors   to account
for interest on cash balances. Such sums ar deucted frm the face of the contrctor
invoices. Where a 
  ounty is a contrctor of the State, e. g., for SLIAG servces, a cap on the
amount of funds a county can access is established in the contrct. The State wil re-examne
and re-negotiate a higher limit where appropriate and issue a contract amendment, if
warted
RECOMMENDATION: Florida should complete its planned modifcation of the automated
system to control SUAG exenditues and disbursement.

Administratve Costs



State fiscal offcials said that actual adistrtive costs ar monitored by crating cost pools
using a coded data element called an " Other Cost Accumulator" in the State automated
system. The State Cost Alocation Plan is followed in calculating costs as a percent of a
claim.

At the county level , local offcials advised that the actual adnistrtive costs for each
progr (includig SLIAG) is bas on a percent of annual funding. This percent is
predcated upon   estiate sta nee and the county federaly approved indit cost rate for
genera and    adnistrtive costs. State claimig of progr adnistrtive costs is addressed
in the final regulation at 45 CF 402. 22.

One county, however, did not have an indict cost rate approved by the cognizat Federal
agency. Other county offcials were unclear about alowabilty of SLIAG costs. They
indicate that they had only reeived broad guidelines from the State.
Drawdown of Funds and Cash         Bales
The State drws down       Fedra funds   only on an   as-nee basis and no soner than 3 days
prior to the actuaJ   expenditu. "Nee" is based on history of cost estimates. The State
automate system produces grt        award estiates for each    quaner. Weekly averages
calculate bas on known pattrns, e. g., payrll. Drws versus expenditus ar monitore
monthy and expenditus versus eargs           ar reviewed quanerly.
The county must submit its application for fuds to the State single point of contact. This
reuest is include in the State s application to FSA for SLIAG funds. A notice is issued by


reimburment
the State to the county when the county application is approved. The county then provides the
SLIAG-relate servces to eligible legalze alens and submits invoices to the State for


FINDING: The necessary forml operating agreements between the State, counes, and
major providers containing the details for implementng SUAG ha not yet been formlized.

Ths   ty of argement is usually       contrlled by a formal interagency agrment, contrct,
grt, or other device.    At the ti   of the insption , a major aspet of SLIAG
implementation , i.e., the fonn and content of the controllg instrments, had not yet ben
determed.
RECOMMENDATION: Florida should develop SUAG operating agreements with the
counties and providers as soon as possible.

PUBLIC HEALTH ASSISTANCE

Assistam:e or Serve Activities

Major public health progrs that wi incur SLIAG-relate costs include imunizations,
famy planning, menta health, prenataperiata car, chid health, counselig and testig for
AIS, examnation and tratment of sexualy trsmitted dieass, trating and               follow-up of
tuberculosis, dit  inpatient and outpatient hospita servces, rehabiltation and acute care,
laboratory and pharcy servces, X-rays, and psychiatrc consultation. Delivery of these
servces is accomplished thugh the Deparent of Health and Rehabiltative Servces
community health facilties in the counties, major health car providers, private physicians,
and laboratores under contract.

In one county, offcials have tentatively identied     one   new progr   for indigent patients. If
adopte it wi reimbur physicians for servces provide to these patients. Servces are
contrte out on a cas- by-cas basis and can include laboratory and phary servces,
X-rays, and psychiatrc consultation.
Documentaton of Eligible Legalized Alien Stats

Eligiblelegal   alen documentation for cost reimburment in public health progrs
under SLIG is not   reui   if cost estiates ar derived frm a population ratio formula.
However, some public health progrs have ben identified by FSA as "public assistace
and therefor reui  such documentation.

FINDING: The FSA' s definition of public assistance includes some public health activities
which created adinistrative and service delivery problems for Florida public health agencies.


Severa program adistere by the Deparent of Health and Rehabiltative Servces
                      progr for SLIAG reimburment purses. The distinction is
considere public assistace
impot beause identiyig a servce as public assistace reuis documenting costs
inCUled for individual eligible legalze   alens served    If a   progr or servce is considere
public health, the population ratio method for establishing costs can be used Applying this
method costs are determed by the percentage of eligible legalze alens in a servce
population to al members of the relevant service population. Ths percentage is applied to
tota progr costs to determe how much can be reimburse with SLIAG funds.

Whle there is no quarel with the logic of FSA's definition of public assistace versus public
health, the distiction crated serious   adnistrtive and    service delivery problems for public
health agencies. These agencies, not the public assistace agencies, must develop and
implement new proesses for identiying individual eligible        legal
                                                                     alens in order to
document costs. Public health offcials in Florida ar concerned that askig patients about
their legal status wi seriously afect the wilingness of patients who ar ilegal residents to


                                              tie.
access public health servces. These peple oftn enter the countr with highly contagious
diseass such as Hepatitis B and nee tratment imately. The effect of this policy on the
public health in genera is not known at ths

Florida offcials pointed out that FSA offere no satisfactory explanation for requirng Dade
County s Jackson Memorial Hospita (the prime public health provider for eligible legalize
alens) to be considere engaged in public assistace rather than public health matters. This
reuiement has resulted in Jackson Memorial Hospita havig to identify individual eligible
legaliz aliens receivig servces and ask progr eligibilty-oriented questions, which is a
process not norally done at the public health intae phas. Jackson Memorial Hospita
offcials find that the reuirment crates new and dicult problems in         adsterig   the
progr and tends to confse applicants for SLIAG-relate servces.
To fulfill the FSA reuirment, new SLIAG patient registrtion procedurs have been
develope by Jackson Memorial Hospita indicatig the requir eligible legalze alen
eligibilty documentation. The documents ar photocopied and retaned in the patient s me
for futu reference. These policies and proedurs have ben in effect since May 20, 1988.
Oter counties have reuested providers to keep      reords   documentig eligible legalze alen
status. The counties ar   also developing   a handbok depictig the varous INS documents
providers use in scrnig applicants for servces.

RECOMMENDATION: The FSA should reconsider its position to clasif certain public
health services as public assistance and mae appropriate adjustmnts to thi position.

Program Costs

Intial progr costs were estiate using a population ratio formula based on what it now
costs to provide servces. By 1990, actual data wi be used in calculatig costs.

Some progr costs wi not         reui speifc documentig beause they were derived by a
population ratio formula; other program costs must be documented by public health providers
as "public assistace" to satisfy FSA reuirments. Trational method wi be use for
ensurng that SLIAG funds ar use to provide servces only to the intende population and
avoid duplicateclai    for reimburment. These method could include reuirng acceptable
identication  obtag      supponig documntation , being famar with progr guidelies,
conducting tring, and monitoring. However, at the tie of the field visits, county offcials
were unsur of the speific reuirments FSA may impose.

Applications for public health assistace servces frm eligible    legal aliens ar processed
no dierently than other patients. However, intae form ar coded       todenote eligible
legaliz alens.   In one county, a  financial class cod is alo assigned These ar also the
pricipal means for avoidig claimig reimburement from SLIG and other Federal
progrs. No distiction is mad between alens who perform seasonal agrcultu services
and those who have reside unlawflly in the Unite States prior to Januar 1 , 1982 , and are
adjusting their status to lawful tempra resident for establishing alowable costs.

Identifyig eligible legalize aliens for State match to FedraState    match   progrs
accomplished based on a class cod and the documentation in the client s fie.

The counties also have a review proess in place for determng the allowabilty and
accury of invoices frm contrtor and vendors in refugee progrs. This process wil
accommodte SLIAG. A second review by county accountats is performed and a third
review is done at the State level. These steps ar similar to those descbe previously under
Public Assistace. Contracts ar cost-reimburable only and       ar bas on perforance. Each

contrct is   closely monitore.
Admnistrators reponed that ordiarly, cash surluses, if any, accred        by contrtors must b
repo to the State. Any resultig interst must be included. In adtion , a prject number is
assigned to identiy the funds   thughout the   lie of the   progr.
Administratve Costs



State and county offcials indicated that actual adnistrtive costs for each progr
(includig SLIAG) is based on a percentage of anual fundig. That percentage had not yet
ben determed at the tie of the site viits. The costs must be diectly related to the SLIAG
progr. State    claig    of progr adstrtive costs is       adsse     in the fial regulation at
45 CF 402. 22.

Drawdown of Funds and Cash Balanes

Predurs for trsferrg     SLIAG fuds from the State to the county ar in place and ar,
accordig to county offcials, being followed However, the form instrments governing
SLIAG implementation have not yet ben negotiated by the State, the counties, or providers.
In Dad County, a hospita   adstrto repo       that SLIAG funds for reimburment will
be trsfen-ed frm the county to Jackson Memoral Hospita bas on monthy billings. It is
expete that ths item wi be stipulate in the contrt or operatig agrment to be entere
into between the State and the hospita.

EDUCATION

Assistance or Serve Activities

Major educational progr      that wi incur SLIG-related costs include kinderganen though
gre 12  , Adult Basic Literacy, English as a Second Language, Citizenship, and History.
Educational servces to adults wi be provide priary by the 58 school distrcts and 13
     unity colleges designate as the adult education local providers. Educational servces
wi also be avaible    thugh community-    bas organiztions, both public and private, and
qualfied designate entities concerned with adult genera education and   imgrt education.
An overl   nee assessment wi be done though meetigs with distrct education offcials
and the Fedra progrs coonator to determe if new          progr ar requir     Thus far,
only one new  progr  for adults (Citizenship) has ben crate due to the avaiabilty of
SLIAG funds. Ths cour assists eligible legalize alens in metig the reuirments related
to the English language and knowledge of the history and Govemment of the United States to
att    lawfl permanent resident status.


Documentaton of Eligible Legalized Alien Stas

Servces under SLIAG will only be provide to those students who were born outside the
United States and have complete less than 3 academic year of schooling in this countr.
Stada enrllment and registrtion proedurs ar followed as pan of the eligibilty proess.
                           reuir
Eligible legalize aliens are         to prouce acceptable identity documents, e. g., evidence
of lawfl temporar residence (fonn 1- 688, Tempora Resident Card) at that tie. Prviders
are reuired to mata      speific documentation on each eligible legalze alen to receive
reimburement A brohure explaig SLIAG has ben            produced and distrbuted statewide
by the Deparent of Education.

Program Costs

The Deparent of Education exclusively uses the data provide by the INS (by way of FSA)
to determe the number of eligible    legal      alens. Payments to providers ar mad on the
basis of the lesser of $500 per student or the providers ' actual costs.

Workshops with the distrcts ar now being planed to develop applications for submission to
the Deparnt of Education to implement SLIAG educational servces. State offcials
advise that they ar followig the law and regutions in strctug the applications. Fund
source cod numbers to be incorrated in the S te automated system wil be used to ensur
that SLIAG-relate costs wi not be mistaenly claied under SLIAG and other grts.

Administratve Costs



The SLIAG   adstrtive        costs ar determed by using the 1.5 percent  lit
                                                                          for education
cited in the Emergency Immgrt Education Act of 1984. Ths limit is incorprated into the
SLIAG regulation. The SLIAG costs ar distinguished from costs for other ongoing progrs
by using a system of titles and cods. As of Mach 31, 1988, an indit cost rate of 17

utities, rent, and, in some instaces,   sta   salares.
percent was fied by the cognizat Fedra agency. This rate covers a porton of items such as


Deparent of Education offcials advise that local education agencies will be audited
anually. The   audits wi focus on doumntig (1)      adstrtion          progrs, (2)
                                                                   of distrct
student eligibilty identication , (3) fuds budgete and alocate (4) progr curculum and
servces, and (5) evaluation of students and progr.

Drawdown of Funds and Cash Balances

State education offcials   advise that no modcations to prsent accounting systems are
planed to drw down and documnt         SLIAG education fuds.

The method ordiary     use to imlement education prgrs      is a grt frm the Deparent
of Education to the distrcts. Trasfer of fuds is ac,omplished by stadad accounting
joural entres. Drwdown follows State proedurs previously descrbe

Although no contracts for delivery of SLIAG educational servces had ben let at the time of
the field visits, monitorig and compliace of such contrts wi be contrlled at the distrct
level.Stada       contract compliance crteria ar followed For example, if a contrctor
reuests an advance for working capita , a wrttn repon of cash on hand is   reuir    before the
advance is authorize. Durg the contrt review proess, if large cash balances
discovered, a full review is conducted, a corrtive action plan is develope, and close
monitoring is perfonned by the distrct thereafr.
CROSSCUTTNG ISSUES

Intervews with State and local adstrtors disclose that certn aspets of SLIAG
implementation were perceived to have had profound effects that reached beyond progr
lies. Below ar the major issues that afected al    thprograms.

FINDING: At the time of the insectin,  Florida ha only broad, informl guidelines from
FSA on the allowability of SUAG costs and the documntation requirements which it could
share with the counties.

Florida counties indicate that they had reeived litte guidace on acceptable SLIAG costs
frm the State. The State advise that FSA had provided no form dition on the
alowabilty of costs or the documentation reuirments for such costs. As a result, guidelines
for determg the alowabilty and amount of actual progr costs had not ben develope
for distrbution thoughout the State. In the interim , the gudelines for preparg the SLIAG
application were being use by Florida offcials. Estiate costs for FY 1990 and FY 1991
wi be develope from FY 1988 and FY 1989 actual costs.
A hospita adistrtor expresse concern over the hospita' s abilty to retroactively identiy
many patients who applied for and reeived trtmnt, but who did not have a form 1- 688,
Tempora Resident Car or 1- 688A, Employment Authorization Car when the tratmnt was
rendere Likewise, it would also be dicult to retroactively document costs for servces to
these patients. It was only later that the hospita leared from FSA that reimbursement for
tratment must be documente by form 1- 688 or 1- 688A. Hospita offcias ar anous that
audit disalowances for reimburement could result beause of lack of       reuir doumentation.
The aformentioned national confernces held by FSA and its publication of "Question and
Answer" issuances have provided some guidace to the State and counties on the alowabilty
of SUAG costs. However, a nee contiues for foral gudelies on acceptable methods for
documentig SLIG progr and 'adistrtive costs.

RECOMMENDATION: The FSA should issue written guidelines for determning and
documntng SUAG costs. In tun, Florid should ensure diseminating informtion for
determining and documentng SUAG program and adinistrative            costs   to the counties.

FINDING: The FSA       applicatin review   process created a   nuer of signifcant problems for
Florid. Also, the FSA's application review process interfered with the State s ability to plan
for services



                Delay in FSA issuig the implementig regulation resulted in the State
                inabilty to properly plan for SLIAG.
             Numerous policy misinterpretations and disagrments resulted beause the FSA
             had not provide definitive wrtten instrctions to assist Florida in understading
             SLIAG application reuirments.

             The tie fres were too shon for submittg the initial SLIAG application
             FSA review and comment, and revision of the application proess.

             Implementig SLIAG- funde progrs was delayed beause of a signifcant
             delay in notiying Florida of the grt awar

             No formal appeals proess exists if program costs ar   denied in   the fIrst level
             review.

State and local SLIAG  plag    effons had to be delayed pendig release of the fial rules.
Ths setback, coupled with problems in the   grt application approval proess and the belated
reeipt of the FY 1988 grt awar cause last minute "       scblig   " by the State and counties
to implement SLIAG.

Accordig to fmal   reguations published Marh 10, 1988, States had to submit the FY 1988
application by May 16, 1988. Revisions were due by July 15, 1988, and the FY 1989
application had to be submitted by July 15, 1989. Due largely to these short tie fres, FSA
provided no formal feeback on revisions necessar in Florida' s FY 1988 application. The
inoration was trsmitted verbally by telephone or personal conferences.

The FSA would not grt paral fundig nor would FSA conditionaly approve applications.
If changes were not ma in accordce with FSA' s suggestions, the enti application was
disapproved

State offcials reponed that instead of providig wrttn gudelines, FSA encourged Florida to
be "crative" in the State inti     application. Two subseuen ! submitts of the application
were reuir by FSA before an " approvable" version was fially accepted A senior county
offcial said, " I was shocked at the waste of time and effon expende by the county to comply
with FSA demands, only to be told that in the end the FSA-supplied population data and no
other, must be used in the application.

Thus, the confused application proess resulted in planng and adistrtive problems and
delays plus frstrtion by State and local offcial in respondig to changig FSA
requirements.

Addtionally, State and county   adnistrtors believe that cuts in the eligible legalize   alien
population estites by FSA were, as one put it, " arbitr and capricious. " Ofcials who
were intervewed assened that FSA gave no reason for the reuctions except that the figues
were too high. In one county, an adnistsrator said, "The Fed are in a no-risk situation with
SLIAG, yet rejected goo faith eligible legaliz alien estimates by a county which has been
ver close to the refugee population for a long tie,      the best position to assess the
                                                      and in
demogrphics of that population. The FSA' s action has resulted in lost revenue to the county.
However, dierences exist between refugees and the eligible legalize alien population.

The FSA did not provide Florida with an appeals proess when program, costs, or
methodologies were not approved Thus, Florida had no choice other than to accept the FSA
deision or foreit al of the SLIG funds for that flScal year.

RECOMMENDATION: The FSA should mae its application and grant process more
orderly. Specifcally FSA shoul

             provide defiitive   wrttn instrctions       SLIAG application reuirments
                                                      on the
             and establish a dialogue with Florida on SLIAG policy, compliance, and
             reponig issues to mimie the confusion that occur in the intial application
             process;

             ensur that sufficient    tie  is alotted to the application process including
             Florida' s initial application , FSA' s review and formal comment, Florida'
             consideration of FSA comments and negotition of disputes, and its submission
             of the revised application for FSA approval;

             develop an appeals proess to use if program or costs associated with providing
             servces ar   denied in   the initial application proess; and

             revise the grant award proess for approved applications so that the notice of
             grt awar reaches Florida pror to the beging          of the fiscal year.
                           OIG RESPONSE TO COMMENTS


The FSA and the State of Florida both commente on the drt repon.

The FSA

The FSA has generay      agr with the OIG repon fidings and recommndations (see
Appendi B). The FSA has taen a number of steps to improve implementation of the SLIAG
progr includig clarg progr policies and proedurs. We have moded cenan
asts  of the repon based on the commnts reeived from FSA.

The FSA questioned the statement that the new population would signcantly incras public
assistace and public health assistace servces.

            indicate that large numbers of alens would qualy to access the SLIAG
Early estites
progr. The repon reognze that inormtion obtaed durg the review determed that
substatial incrases in workoad and expenditus could occur in these aras as well as in
education. However, we understad frm reent discussions with States ' offcials that demand
for servces is falg behid earlier projections.

The FSA' s   defition of public assistace included some public health activities, which created
adistrtive and servce delivery problems for Florida public health agencies. The OIG
reommende that FSA reonsider        ths   position.

The FSA replied that they se this   priy as an issue of cost identication and that they wil
work with the States to develop method of documentig costs which ar        consistent   with
FSA' s respnsibilties as stewar of    public fuds.    We believe that FSA' s actions to identiy
alternative method is   responsive to our concerns.
We contiue to believe that a strct interpretation which permts public health costs to be
clai     only for spc     eligible legalze alens is burnsome to the States and, in may
cass, would reuir considerable revisions to the State s system or statutory reuirments.
However, we do agr that FSA' s use of alternative systems, such as the Cost Doumentation
System and a revised population ratio method system which reflects usage, would be a
positive effon to enhance cost effectiveness without   reuig   States to develop new systems
or mae considerable revisions to present systems. The population ratio method could be
revised to consider not only eligible legalize alens in the servce population but use of those
seces by the eligible legalize alien population bas on informtion alady obtaned from
progr experience. Where appropriate, other alternatives might be use        which would
prouce a more effcient system for the States and      adss
                                                         congrssional intent that the     States
would not be reuired to establish new or elaborate systems.
We   repo that no formal appeals proess exists if progr costs       ar denied in   the fIrst level
review.

We  agr with FSA' s statement that the Grat Appeals Boar does have juridiction over
mattrs for witholdig and repaymnt of SLIAG fuds. However, it was the State s concern
that an effective appeals mechanism be in place for issues involvig  progr
                                                                         or costs at the
fit level   of FSA' s review in the application proess.

TIu Stae Of Florida

The State has generay    agr    with our fidigs and reommndations (se Appendi C).
Since the tie of the on-site review, the State has also taen signifcant steps to effectively
implement the SLIAG progr thugh proedur and system changes.
                                         APPENDIX A


GOOD PRACTICES

A number of prtices   have   ben identied that other States could shar.

1. The Refugee   Prgr Admistrto for the Deparnt of                Health and Rehabiltative
    Servces is the single point of contat in Florida The Governor s placement of the single
    point of contat in the deparent     ensurs high viibilty for SLIAG.
2. Florida sureyed its public assistace, public health assistace, and educational servces
   progr to assess the overa nee in providig expande assistace to eligible
   legal alens.
3. To assist eligible legalze alens meet educational reuirments       for perment resident
    status, Florida develope   a new   educational progr   caled " Citizenship.


4. St. Lucie County and a local rao station ar workg jointly to broadast available
    seces (includig those under SLIAG) in Crle to reach a lare          Hatian     population.

5. Browar County      adstrtors    conducte a ZI cod analysis to determe where
   concentrtions of eligible legaliz alens reside in the county. Thus, local servce
                                         frequently can be quickly identied and aras
    delivery centers liely to be afecte most
    where providers ar neeed can be tagete Ths tool is usefu for the county in carng
    out its progr assessment and plang functions for expandig existig progrs.

6. Jackson Memoral Hospita has develope new SLIG             patient registrtion   proedures
    indicatig the reuir documentation for eligible legalze alens.

7. Plans for imlementig SLIAG include developing form contrts, grts, or operatig
    agreements with servce providers such as the counties, a major hospita, and the
    Deparent of Education. Expenditu and disbursement contrls will be an integral pan
    of the form agrments. The SLIG servces ar provide on a cost-reimbursable basis.


8. No cash advances or cash balances ar anticipate Contrct compliance wil be closely
    monitore according to established State stadads.
            APPENDIX B



Family Support Administratn Comments

. :( 
                                                                   APPENDIX B

              DEPARTMENT OF HEALTH II HUMAN SERVICES                  Family Suppon Admlnlstratl
                                                                      Offce of Refugee Ruetllerr


              Refer to:                                               Memorandu
     D.tl:    duly 11. 1989
             Acting Assistant Secretary
     From      for Family Support

             OIG Draft Reportl Implementation of the State Legalization
     Subjet: Impact Assistance Grants Under the Immigration Refor. and
              Control Act of 1986 - Florida          (IJA.r-   'J'-   '5j
     To:	    Richard P.  Kusserow
              Inspector General


             Attached are the Family Support Administration coments on
             the above report. Many of our coments are technical in
             nature due to the complexity of the legislation and the fact
             that the SLIAG program was very new at the time of the
              review.
             We appreciate the assistance and cooperation we have

             received from you in response to our request to 	 onduct this

             round of r views of the SLIAG program. The reports we

             received are very useful to us in understanding how States

             are impleme ting the program.





             . Attachment




                                              B-1

                        OIG DRA REPORT:

Implementation of the state Legalization Impact Assistance   Grants
Under the Immigration Reform and Control Act of 1986:
                             FLORIDA
The Family Support Administration' s comments are divided into
three sections: Comments   on background information and other
narrative material that does not relate directly to the draft
report' s findings, comments on the findings, and responses to the
draft report' s recommendations.

Narrative:
Page 1 (Background) -- The draft report says, "This new

population will increase the demand for State public assistance

and public health assistance services significantly.   The draft

report isn't clear whose conclusion this is or upon what data and

analysis the conclusion is based. The final report should

clarify these points.
In the course of implementing SLIAG, we have discovered that
neither state and local public health programs nor, with few
exceptions, public assistance programs, inquire about legal
status.   This suggests that at least some aliens were using these
services before legalization and that newly legalized aliens do
not represent a " new population" for public assistance and public
heal th assistance services. Preliminary cost data from States
suggests that newly legalized aliens are accessing public
assistance services at rates far lower than the general
population.   There are indications that a backlog of public
health needs existed and was identified during the medical
examinations required of all applicants for legalizations.
However, there is no data to suggest that, other than this
temporary bulge in demand for public health services, newly
legalized aliens will generate a significant increase in demand
for public health assistance or public assistance services.

Page 4 (Findings and Recommendations) -- The draft report
"Since 1987, FSA has held national conferences and issued
                                                            says,
information to states on implementing the SLIAG program.    Since
the OIG' s onsite visits in August 1988, we have continued to
provide assistance to States. We have conducted several more
workshops and meetings to assist states in implementation. In
October 1988, we issued a compendium incorporating the extensive
formal guidance previously provided to states on methods of cost
documentation. We also have provided assistance to individual
States in the form of correspondence, telephone consultation, and
onsite technical assistance. We are in the process of conducting
initial program reviews of the major States, and intend to visit

selected other States as well. We request that the final report

reflect this continuing dialoge with States.
Page 4 (Findings and Recommendations) -- The draft report lists a
number of steps Florida took to identify " organizational and
program needs.    (Many of these steps also are featured in the
Appendix, "Good Practices, " which the draft report suggests could
be emulated by other States.    It is not clear from the
description of these steps that the statute and regulation limit
use of SLIAG funds for public assistance and public health
assistance to activities that are " generally available.   This
means that states may not use SLIAG funds to set up public
assistance or public health assistance programs specifically for
 eligible legalized aliens.    The final report should make clear

how this requirement relates to the state actions featured in the

draft report.


Page 6 (Pulic Assistance) -- The draft report states, "state
officials indicated that no new programs for eligible legalized
aliens are anticipated.   The draft report also says that the
Broward County zip code analysis of eligible l galized aliens in
the county could be used to "identify areas where providers of
services will be needed.   It is important to note that all
programs of public assistance must meet three criteria.                 First
they must be generally available to the population of the State.
Secondly, they must be means-tested. Lastly, they must provide
for the subsistence or health of the individual. As noted above,
the requirement that the programs be generally available would
preclude the state from developing any programs for " eligible
legalized aliens. The final report should make that point
clear.
Page 9 (Public Health Assistance) -- The draft report says, "In
one county, officials have tentatively identified one new program
due to the availability of SLIAG funds.   As noted above, the
statute and regulation require that programs of public health
assistance be generally available to the population. The final
report should make clear how the proposed new program would
conform to that requirement.

Page 11 (Administrative Costs)                    -- The draft report says that
  actual administrative costs for each program (including SLIAG)
are based on a percent of annual funding. That percent had not
yet been determined at the time of the site visits.                      The final
report should note that acceptable methods for determining SLIAG
and program administrative costs are outlined in Federal
regulation.                     Several methods for determining the share of
administrative costs in ongoing programs that are allocable to
                                                  a priori are specified in the
                                22.
SLIAG and which are acceptable 


regulation at 4S CFR 402.                        This section of the regulation also
permi ts use of other methods for determining program
administrative costs that will document that these costs are
   allowable, allocable to SLIAG, and reasonable.                    The process of

determining SLIAG administrative costs, like all costs associated

with administering HHS grants, is governed by 45 CFR Parts 74 and

92 and relevant OMB circulars.


Page 12 (Education) -- The draft report says that the Department
of Education " exclusively uses the data provided by INS (by way
of FSA) to determine the allowable amount of SLIAG funds
available to providers who serve the eligible legalized alien
population. We assume that this description applies to the way
the state determines funding priorities, and is not descriptive
of its basis for paying  providers.  Because the IRCA and federal
regulations specify 11mi ts on the use of SLIAG funds for
education purposes (the lesser of $500 per student or actual
costs) the state Department of Education is required to make
payments on the basis of providers' costs. The draft report
should make this point clear.

Findinas
Finding:
           The FSA' s definition of public assistance includes some

           public health activities which creates administrative

           and service delivery problems for Florida public health

           agencies.
Comment:
           We question how the definitions of public health and
           public assistance create service delivery problems for
           Florida public health agencies. By statute and
           regulation, all programs or activities under both
           categories must be generally available. In practice,
           this means that SLIAG funds are available only to
           reimburse costs in ongoing, generally available
           programs. In most programs, immigration status is not
           a condition of eligibility. (The draft report notes
           that undocumented aliens access public health
           assistance services.   If the alien is eligible for
           services, he or she would receive those services
           regardless of whether they were reimbursed under SLIAG.
           The final report should clarify this point.

           Page 9 of the draft report notes that "there is no

           quarrel with the logic of FSA' s definition of public

           assistance versus public health, " but does not explain
           that logic or why the OIG recommends that FSA reverse
           its logic. The final report should explain that the
           regulatory definitions of public assistance and public
           heal th assistance are based directly on section 204 of
           the Immigration Reform and Control Act of 1986 (IRCA),
           which created SLIAG.
 Programs of public assistance are defined as programs
 that " provide  for cash, medical or other
 assistance.. . designed to meet the basic subsistence or
 health needs of individuals " (section 204 (j) (2) (A)
 emphasis added). Consistent with IRCA' s   explicit
 inclusion of medical assistance under the public
 assistance category, state or locally funded programs
 that provide medical treatment to needy individuals are
 considered by FSA to be public assistance.

 IRCA defines programs of public health assistance as

 programs which " provide public health services,
 including immunizations for immunizable diseases,

 testing and treatment for tuberculosis and sexually-

 transmitted diseases, and family planning services"

 (section 204 (j) (3) (A) J. These statutory definitions
 and the legislative history indicate that Congress
 intended to allow certain traditional public health
 functions under the public health assistance category
 and medical assistance to the needy under the public
 assistance category. In      implementing SLIAG, we have
 followed that statutory framework. We have defined
 public health assistance as, among other things,
 programs or activities that " are provided for the
 primary purpose of protecting the health of the general
 pUblic" , (4S CFR 402. 2 J . The scope of programs included
 in that regulatory definition of public health
 assistance goes far beyond the specific activities
 listed in the IRCA.

 Regarding the draft report' s concern, on pages 9-10,

 that aliens " often enter the country with highly

 contagious diseases and need treatment immediately,
 the final report should note that the treatment of

 dangerous contagious diseases, including tuberculosis

 and sexually transmitted diseases, is included in the

 statutory and regulatory definition of public health

 assistance.
  The public assistance/public health assistance

  categorization issue is. primarily one of cost
  documentation requirements, not the a11owabi1ity of

  costs associated with any particular health program.

  The report notes that Florida officials feel that

  because of this issue, "states will not be able to

  claim reimbursement for their costs, which will have

  the effect of sequestering funds.    Without the

  distinction between categories, Florida would likely

  use the population ratio method to establish costs for

  all programs run by the Commission on Public Health.

  Implicit in this method is the assumption that eligible

. legalized aliens will access programs in the same


                       B-S

            frequency and at the same cost as the general

            population. We do not believe this assumption to be

            appropriate for medical assistance programs that

            provide treatment to needy individuals. To the

            contrary, the information that we have to date

            indicates that allowing use of the population ratio

            method for these programs generally would overstate

            costs, dramatically in some cases. However, we would

            be willing to allow use of the population ratio method

            for any program for which there is an emDirical basis

            to indicate that doing so would not overstate costs.


            FSA realizes that many public assistance and public
            heal th programs do not routinely collect information on
            immigration status but has found many do collect social
            security numers. That   is why we funded and devoted
            substantial staff resources to developing a system that
            will match the social security numers of program
            participants with those of newly leqalized aliens.
            This system gives states information on the numer of
            newly legalized aliens participating in a program and
            the' cost ofservices to them.  It is now available and
            allows states to establish costs for FY 1988 as well as

            current and future years. Recently, we sent state

            SLIAG Single Points of Contact suggestions for other

            possible methods for establishing costs. None of these

            alternative methods requires setting up new

            administrative mechanisms or checking status of all

            program participants. 

            The draft report on page 10 says, wFlorida officials
            pointed out that FSA offered no satisfactory
            explanation for requiring Dade County' s Jackson
            Memorial Hospital.. . to be engaged in public assistance
            rather than public health matters.     FSA informed
            Florida that the .activities in question did not meet
            the statutory and regulatory criteria for public health
            assistance. In   addition, guidance on allowable
            activities issued to states on June 17, 1988 described
            in great detail the kinds of activities which met the
            criteria for public health assistance and those that
            met the criteria for public assistance and how to
            distingu sh between the two categories.
            We will continue to work closely with Florida to

            develop methodologies to document costs for all

            programs in its approved applications.

Finding:

            At the time of the inspection, Florida had only broad,

            informal guidelines from FSA on the allowability of

           SLIAG costs and the documentation requirements which it

           could share with counties.
Comment:
           As the draft report notes, at the time of the
           inspection, FSA already had held several national
           conferences, beginning in 1987, and had provided states
           wi th " Question and Answer" issuances, which dealt with
           specific questions about allowability of costs.
           June . 1988, we issued detailed guidance on kinds of
           activities that met the statutory and regulatory
           cri teria for each of the three categories of services
           for which SLIAG funds may be used (public assistance,
           public health assistance, and educational services).
           The regulation and its preamble provided guidance both
           about allowabili ty of costs and requirements for
           establishing costs. Additionally, Federal staff spent
           extensive time in conversations with\ state  officials
           answering questions about cost allowabili ty and cost
           documentation. The final report should include this
           information.
Finding:
           The FSA applicati n process created a numer of
           significant problems for Florida. Also, the FSA'
           application review process interfered with the State'
           ability to plan for services.


Comment:
           The draft report on page 14 says that the time period

           for submission, review, " t-evision and approval of the
           initial application was too short. We agree that it

           would have been preferable to have had a longer period

           of time between the publication of the final regulation

           and the deadline for submission and approval of FY 1988

           and FY 1989 applications. However, one reason for the

           compressed timeframe was that IRCA required that we

           allocate funds in part on the ratio of each state'
           estimated costs to total estimated costs for all
           states. This  meant that we could not allocate funds
           until we approved estimates for all states. The final
           report should note this factor.


           The draft report on page 14 says that - numerous policy
           misinterpretations and disagreements resulted because
           FSA did not provide definitive written instructions to
           assist Florida in understanding SLIAG application
           requirements. " Had there been more time, we would have
           communicated more extensively in writing. (As noted
            above, FSA did issue written guidance concerning
            allowability of costs. Comments on Florida' s FY 1989
            application were made in writing in response to
            Florida' s request.
            The report on page 15 says no formal appeals process

            exists if programs or costs are denied. The final

            report should note that the Grant Appeals Board has

            jurisdiction over issues related to the witholding and

            repayment of funds. For other matters, the State may

            follow normal procedures for disagreeing with an agency

            finding.
          The draft report on page 15 quotes State and county

          officials who " asserted that no reason was given by FSA

          for the reductions (in estimated costs) except that the

          figures were too high.    In cases in which we did not

          accept initial State cost estimates, we communicated to
          the state that it had not provided data to back up its
            estimates. Because funding is based in pa    on each
          State' s share of total estimated costs for all States,
          an individual state' s cost estimates impact not only on
          its allocation, but also on all other States'
            allocations. (If one State' s cost estimates were
          unrealistically high, it would receive more than its
          fair share of funds, which would mean ' other states
          would receive less than their fair share.     Therefore,
          it was necessary for us to apply consistent standards
          for evaluating the reasonableness of state estimates.
          (These standards are specified in the preamble to the
          regulation, 53 lB March 10, 1988, page 7855.     The
          draft report also quotes a county administrator who
          compares the eligible legalized alien population to
        . refugees. It should be pointed out in the final report

          that these two populations are not necessarily

          analogous because of differences in the circumstances

          under which they entered the United States and in their

          demographic characteristics.



Recommendations
Recommendation:
            The FSA should issue written guidelines for determining

            and documenting SLIG costs.
Response:
            FSA has issued such guidance. In October 1988, we

            issued a comprehensive compendium of guidance on

            "Establishing and Reporting Actual Costs, " which we

            upda te as needed.

            since the OIG inspection, we have continued to provide

            specific quidance to states through national and

            regional meetings, through additional written quidance

            distributed to States, and through correspondence and

            conversations with individual state officials.


Recommendation:
            The FSA should reconsider its position to classify

            certain public health services as public assistance and

            make appropriate adjustments to this position.


Response:
            As discussed above, the primary issue relating to the
            definitions of public assistance and public health
            assistance is one of cost documentation. States would
            like to use the population ratio method for all
            programs run by their health departents.    The final
            report should clarify whether the OIG is recommending
            that we allow use of the population ratio in programs
            where, as discussed above , its use would likely
            overstate actual costs.
            We believe that using the population method for all
            programs run by State health departments would be
            inconsistent with our responsibility to exercise
            fiscal responsibility in administering SLIAG funds.
            However, we recognize that some States may encounter
            difficulties in establishing actual costs, especially
            where ELAs are a small percentage of a State'
            population or for programs that few ELAs access. We
            will continue to work with states' to ensure that a
            method is available to allow them to establish actual
            costs for each program in their approved applications,
            consistent with our responsibilities as stewards of
            public funds.

Recommendation:
            The FSA grant process should be made more orderly.

Response:	 The draft report' s recommendation refers to the
            FSA grant process, but the specifics indicate
            that it is referring to the SLIAG application
            and grant award process. The lanquage of the
            recommendation should be more specific.
            We agree that the appl ication process should be

            conducted in a more orderly fashion than was the case

            for the initial submissions. As the draft report

                                 B-9
indicates, the timeframes for the FY 1988 and FY 1989
application processes were necessarily short.
effect, the states and FSA had to complete two
application processes in less than a year. We do not
expect similar problems for the FY 1990 and FY 1991
appl ication processes.
To ensure that states have adequate time to prepare
their FY 1990 applications based on empirical data, we
have extended the deadline from July 15 to October
Addi tionally, we have encouraged states to submit as
early as possible any questions, issues, or
descriptions of new programs, and have advised them
that they may submit all or portions of their
applications at any time. In order to reduce the
possibility of misunderstanding, we have advised
states that we will communicate all substantive
questions and concerns on their FY 1990 applications in

wri ting, as was done for States' end-   year reports.
We issued extensive written guidance on th, FY 1990
application process and the standards we will apply.

The draft report on page 16 recommends that we " revise
the grant award process for approved application so
that notice of grant award reaches Florida prior to the
beginning of the fiscal year.   Under the regulation,
that is not possible.  For FY 1990, the deadline for
submitting applications is October 1, 1989, and

applications must be approvable by December 15, 1989.

While we cannot run the allocation formula or award

grants until all states' applications are approved, we

expect to run the formula in January 1990. However,
States have told us that, because they have FY 1988 and
FY 1989 funding that they can carry over into FY 1990,
the delay will not be a problem for them.  For FY 1991,
the deadline for filing applications is July 15, 1990,
and applications must be approvable by October
1990. We expect to run the allocation formula and
prepare grant awards early in FY 1991.

The draft report also recommends that we develop an
appeals process to use if programs or costs associated
with providing services are denied in the initial
application process. We do not believe such a process
is necessary. The Department' s Grant Appeals Board has
jurisdiction over cases involving the repayment or
withholding of funds. Normal channels within the
Department are open to States that disagree with
decisions made during the course of application review.


                     B-IO
..



       APPENDIX C



     Flori' s Comments

,.   ; .   ..                                                                -"           -(.
                                                                                        .,,-. (




                                                                                                  APPENDIX C





                       STATE OF FLRIDA
                       DEPARTMEN OF HEALll AND REABIUTAllYE SERV1CrS
                                                                                  c;,
                                                          July 7, 1989 

                                                                                                4! ;,
                                                                                        tp..

                                                                                               '.;0



                Mr. ' Richard P. Kusserow
                Inspector General
                Department of Health ' Human services

                 Office of Inspector General

                Washington, DC 20201'
                Dear Hr. Russerow: 

                       Your report entitled "Implementation of the state

                Legalization Impact Assistance Grants Under the Immigration

                Reform and Control Act of 1986 - State of Florida" has been sent

                to    y office for review and response. The report generally
                reflects an accurate understanding of the situation .the state and
                the u. s. Family Support Administration (FSA) faced at the
                 inception of implementation of the State Legalization Impact
                Assistance Grant (SLIAG) program.s From
                                                     final
                                                          the states perspective,
                                                           SLIAG regulation had

                 it is important to note that FSA'
                 only been released five months prior to the Inspector General'

                 review and the state' s application was not approved by FSA.

                 Since that time, both the state and FSA have made enormous

                  strides in implementing SLIAG. Below are our comments to the

                 various findings of this report.

                        Pulic Assistance
                                Pindinq 1 : Florida' s planned modification of its

                                automated accounting system to control SLIAG
                                expendi tures and disbursements had not been
                                 implemented.
                                 Recommendation: Florida should complete its planned
                                 modification of the automated system to control SLIAG
                                 expenditures an disbursements.
                                 Comment: At the time of this review, the state had not
                                 modified its accounting system. However, this system
                                 is now operational and the necessary control of SLIAG
                               . expenditures and disbursements is in place.




                   t:
                                 Pindinq 2   The necessary formal operating agreements
                                 betw en the state, counties, and maj or providers
                                 containing the details for implementing SLXAG had not
                      IVED       yet been formalized.

            JUL 2 11999
              OFFICE OF
           SPECTOR GENEF7 WINEWOOD         BLVD. . TA LAIiASSEE FL 32399-700
       --- .....-.... """I'                                                GRGOY L. COLE. SECRrIMY
,. 




           Recommendation: Florida should develop SLIAG operating

           agreements with the counties and providers as soon as

           possible.
           Comment: As the report indicates, Florida was delayed

           in developing SLIAG operating agreements with the

           counties because of the application approval process.

           Florida received a letter on July 11, 1988 approving

           the states original FY 1988 application. However, this

           application was amended with the 1989 application and

           approval was not received until October 24, 1988.

           Florida uses a formal contract agreement with the

           counties and these agreements could not be executed

           without an approved application.


           The contract language for SLIAG was not developed at

           the time of this review.  Today, we have executed
           contracts with the state Departent of Education and
           all but a few participating counties.


       Pulic Health    Assistance
            inding 3   The FSA' s definition of public assistance

            ncludes some public health activities which creates

           administrative and service delivery problems for

           Florida public health agencies.

           Recommendation: The FSA should reconsider its position

           to classify certain pUblic health services as public

           assistance and make appropriate adjustments to this

           position.
           Comment: Florida concurs with this recommendation.
           Our public health agencies are. still wrestling with
           this issue.  Documenting public health costs to the
           individual defeats the purpose of public health 8ervice
           units.  These units are to provide public health
           services to those in need in order to protect the
           public from contagious health hazards. Asking
           immigration status of those requiring services sends a

           different message to the public.


           We understand that FSA is interpreting the Immigration
           Reform and Control Act of 1986 to the best of its
           abili ty, but action should be taken to correct this
           situation.   Otherwise, States will shoulder the health
           costs of this federal amesty program.
           Finding 4 : At the time of the inspection, Florida had
           only broad, informal guidelines from FSA on the
           allowabili ty of SLIAG costs and the documentation
           requirements which it could share with the counties.
..




     Recommendation: The FSA should issue written
     guidelines for determining and documenting SLIAG costs.
     In turn, Florida should ensure the dissemination of


     information for determining and docuenting SLIAG
     program and administrative costs to the counties.

     Comment: Since this review, FSA has issued a detailed
     manual covering SLIAG cost documentation. A copy of
     FSA' s manual has been sent to participating counties
     and the Departent of   Education.

     Findinq 5   . The - FSA application process created a
     numer of siqnificant problems    for Florida. Also, the
     FSA' s application review process  interfered with the
     States' a ability to plan for aervic8..
        Delay in FSA issuing the implementinq regulation

        resulted in the state' ainability to properly plan
        for SLIAG.

        Numerous policy misinterpretations and disagreements
        resulted because the FSA had not provided definitive
        wri tten instructions to assist Florida in
        understanding SLIAG application requirements.

        The time frames for submitting the initial SLIAG

        application, FSA review and comment, and revision of

        the application process were too short.


        The implementation of SLIAG-funded programs was
        delayed because of a siqnificant delay in notifying
        Florida of the qrant aw rd.
        There is no formal appeals process if program costs

        are denied in the first level review.

     Recommendation    The FSA grant process ahould be made
     more orderly. Specifically FSA should:
        provide definitive written instructions on the SLIAG

        application requirements and establish a dialogue

        with Florida on SLIAG policy, compliance, and

        reporting issues to minimize the confusion that

        occurred in the initial application process;


        ensure that sufficient time is allotted to the
        application process including Florida' s initial
        application, FSA' s review and formal comment,
        Florida' s consideration of FSA comments ' and
        negotiation of disputes, and its submission of the
        revised application for FSA approval;
..


                   develop an appeals process to use if program or

                   costs associated with providing services are denied

                   in the initial application process; and

                   revise the grant award process for approved

                   applications 80 that the notice of grant award

                   reaches Florida prior to the beginning of the fiscal

                   year.
                Comment: Since this review, FSA has established
                wri tten instructionson the SLIAG application
                requirements, the review criteria and approval process.
                In addition, FSA has extended the FY 1990 application
                deadline to ensure states have sufficient time to
                submit their applications. The extension also allows
                states to document more cost, since the FY 1990
                application is based on actual FY 1988 recorded costs.
                FSA has been attentive to both federal and state needs
                in this area since the first application.

          The findings identified were real problems during the first

     and second applications. We believe both FSA and states learned

     a great deal as a result. Hopefully the FY 1990 application
     process will be a smooth one.
          Florida strongly suggests that this report be u.ed to inform
     Congress of the hardships states experienced in implementing
     SLIAG. states had little or no time to begin implementing SLIAG
     until applications were approved and grant awards were received
     let alone document costs.
          This report could be an effective tool to dissuade Congress
     from cutting SLIAG funding. States have incurred , costs but due
     to slow implementation on the Federal level, states have not been
     able to show costs when the first report to Congress was due.
          Thank you for the opportunity to comment on this draft
     report. Should you have any
                (904) 488-3791
                                  questions, please contact me or Gary
     Crawford at
          With kind regards,



                                                                istrator
     NKW: cym
